                                         NATIONAL SCIENCE FOUNDATION
                                         OFFICE OF INSPECTOR GENERAL
                                           OFFICE OF INVESTIGATIONS

                                    CLOSEOUT MEMORANDUM

 Case Number: A08040025                                                        Page 1 of 1


        We received an allegation of plagiarism in an NSF proposal1 and' concluded an
        investigation was warranted. We referred the matter to the Subject's2 home
        institution (the University), which concluded the Subject recklessly plagiarized and
        took several actions. We concurred with the University and referred the matter to
        NSF for adjudication. NSF concluded the Subject recklessly plagiarized and the
        plagiarism was a significant departure from the accepted practices of his
        community. NSF made a finding of research misconduct against the Subject and
        required him to a) provide certifications with any submissions to NSF for 3 years,
        b) provide assurances from his employer about his submissions to NSF for 3 years,
        and c) take a course on proper research practices. Accordingly:, this case is closed.
        Our report to NSF and NSF's decision are attached.




             1   [redacted].
            2    [redacted].



NSF OIG Form 2 (11102)
... 	                                     NATIONAL SCIENCE FOUNDATION
                                               4201 WILSON BOULEVARD
                                              ARLINGTON, VIRGINIA 22230




                                                JUN 2 9 2010

            OFFICE OF THE
           DEPUTY DIRECTOR




        CERTIFIED MAIL --RETURN RECEIPT REQUESTED




                Re: Notice ofResearch Misconduct Deiermination

        Dear Dr. '
                On February 15, 2008, you submitted a proposal to the National Science Foundation
        (''NSF'') entitled, "~            _             ' As documented in the attached Investigative
        Report prepared by NSF's Office of Inspector General ("DIG"), this proposal contained
        plagiarized materiaL

        Research Misconduct and Proposed Sanctions
                                                                 "
                    Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
        . 	 or plagiarism in proposing or perfonning research funded by NSF ... " 45 CFR § 689.1(a). NSF
            defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
            without giving appropriate credit." 45 CFR § 689.1(a)(3). A finding of research misconduct .
            requires that:

                (1) There 	be a significant departure from accepted practices of the relev<:!llt research .
                    community; and
                (2) The research misconduct be committed intentionally, or knowingly, or reckles~ly; and
                (3) The allegation be proven by a preponderance of evidence.

        45 CFR § 689.2(c).

               Your proposal contained verbatim and paraphrased text, tables, and a figure copied from
        numerous websites and a paper. By submitting a proposal to NSF that copied the ideas or words
        of another without adequate attribution, as described in the DIG Investigative Report, you
          II                                                                                                        Page 2
                                                                                                                              •
                 i'
                 ii   misrepresented someone else's work as your own. Your conduct unquestionably constitutes
                      plagiarism. I therefore conclude that your actions meet the definition of "research misconduct"
                      set forth in NSF's regulations.
             I


           Ii          Pursuant to NSF regulations, the Foundation must also determine whether to make a
           jl, finding of misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After
           !i reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
            II  evidence, your plagiarism was committed recklessly and constituted a significant departure from
               accepted practices of the relevant research community. I am, therefore, issuing a rmding of
               research misconduct against you.

     .                        NSF's regulations establish three categories of actions (Group I, IT, and ill) that can be
          'jji        taken in response to a finding of misconduct. 45 CFR § 689.3(a). Group I actions include
          ~'          issuing a letter of reprimand; coriditioning awards on prior approval of particular activities from
          .il         NSF; requiring that an institution or individual obtain special prior approval of particular
          ,ir         activities from NSF; and requiring that an institutional representative certify as to the accuracy of
                      reports or certifications of compliance with particular requirements. 45 CFR § 689.3(a)(1).
                      Group IT actions include award suspension or restrictions on designated activities or
                      expenditures; requiring special reviews of requests for funding; and requiring correction to the
                      research record. 45 CFR §689.3(a)(2). Group ill actions include suspension or termination of
                      awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
                      or Suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

      I.
                              In determining the severity of the sanction to impose for research misconduct, I have
     I
                      considered the seriousness of the misconduct, and our determination that it was committed
                      recklessly. I have also considered the fact that your plagiarism was part of a pattern of
                      misconduct, and that it had no impact op the research record. I have also considered other
                      relevant circumstances. 45 CFR § 689.3(b) .

                             .After assessing the relevant facts and circumstances of this case, I am taking the
                      following actions against you:
     I.

 i•
                             (1) Until July 15,2013, you must provide certifications to the OIG that any submission
                                 you make to NSF as a PI or co-PI does not contain plagiarized, falsified, or fabricated
                                 material; .

                             (2) Until July 15,2013, your employer must provide assurances to the OIG that any
                                  submission you make to NSF as a PI or co-PI does not contain plagiarized, falsified,
                                , or fabricated material; and

                             (3) You must attend a course on proper research practices, including attribution and
                                 citation standards no later than July 15, 2011, and certify to the OIGthat you have
If                               done so.
'I
:1




1i

d
                                                                                                         Page 3
                    The certifications and assurances should be submitted in writing to OIG, Associate
             Inspector General for Investigations, 4201 Wilson Boulevard, Arlington, Virginia 22230.

             Procedures Governing Appeals
                     Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
             of this decision, in writing, to the Director of the Foundation. 45 CFR § 689.1O(a). Any appeal
             should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
             Arlington, Virginia 22230. Ifwedo not receive your appeal within the 30-day period, this
             decision will become fmal.

                    For your information, we are attaching a copy of the applicable regulations. If you have
             any questions about the foregoing, please call             Assistant General Counsel, at (703)
             292-8060.



                                                                  Sincerely,




                                                                  Cora B. Marrett !
                                                                  Acting Deputy Director




             Enclosures
                 Investigative Report
             - . 45 C.F.R. Part 689




.....   _ - - - - - - - - _ ......_-----_...._ - - - - _ . _ - - - - - - - - - - - - - -
.;




     CONFIDENTIAL                                                             CONFIDENTIAL




          National Science Foundation
           Office of Inspector General




                     Confidential
                Report of Investigation
               Case Number A08040025
                           March 11,2010
       This Confidential Report of Investigation is the property of the NSF OIG and may be
      disclosed outside NSF only by OIG under the Freedom of Information and Privacy Acts,
                      ,               5 U.S.C. §§ 552, 552a.

                                                                         NSF orG Form 22b (11/06)
       f
  ,;,,.~ I
      ,\,




                                              Executive Summary
             Allegation 	         Plagiarism.
             . OIG Inquiry 	      We found approximately 105 lines of verbatim text copied from
                                  multiple web pages in the Subject's proposal. We referred the
                                  matter to the Subject's home institution for investigation.
              University 	        The University concluded the Subject recklessly plagiarized and
              Investigation 	     thus, committed research misconduct. It identified evidence of a
                                  pattern of plagiarism in the Subject's proposals. The University
                                  reprimanded the Subject, required him to take a responsible
                                  conduct in research course, with an emphasis on attribution,
                                  citation, and copyright.. It required the Subject to certify his
                                  reports and proposals are free from plagiarism for 3 years, and
                                  he must also present all his funding submissions to the Research
                                  Integrity Officer (RIO) for evaluation for 3 years.
              OIG Assessment 	We concur with the University that a preponderance of evidence
                              supports the conclusion the Subject committed research
                              misconduct (plagiarism) recklessly.
                                  The Act: The Subject plagiarized approximately 105 lines from 6
                                  web pages and 2 tables and 1 figure from a paper into his
                                  proposal.
                                  Intent: we concluded the Subject acted at least recklessly.
I~I
                                  Significant Departure: We concur with the University the
                                  Subject's plagiarism was a significant departure from accepted
                                  practices.
I,
                                    Evidence of a Pattern: We concur with the University's finding
                                  .	o f plagiarism in several of the Subject's proposals to NSF and
                                    other agencies.
              OIG Recommends NSF
                 • 	 Send a letter of reprimand to the Subject informing him that NSF has made a
                     finding of research misconduct.
                 • 	 Require the Subject to provide certification to the AlGI that he has taken a
                     course on proper research practices, including attribution and citation
                    standards~'

                 • 	 For the next 3 years, require the Subject to provide.a copy of the certification
                     he is required to provide his RIO indicating the submitted work is either
                     entirely his own writing or is properly cited.
                 • 	 For 3 years, require the Subject to provide a copy of the RIO's assurance that,
                     to the best of his or her knowledge, the Subject's work is entirely his own
                     writing or is properly cited.
t.




                                               OIG Inquiry
          We reviewed an allegation that the Subject! submitted a proposa1 2 (Proposal 1)
     which contained plagiarized text. We evaluated the proposal and discovered
     significant copying-approximately 105 lines of text copied verbatim from multiple
     web pages (approximately 10 pages from 6 sites). We contacted the Subject 3 who
     responded 4 by taking full responsibility for the contents of his proposal. He denied
     plagiarizing; saying he inadvertently utilized the source material because he did not
     understand NSF's citation policy regarding background material. He said the
     material consisted of textbook explanations so he was not taking any original ideas.
     He noted this was an isolated incident in his long career (the Subject is a chaired,
     Distinguished Professor and Director of an                         ) and there was no
     additional copying in this proposal or any of his other proposals. Given his
     explanation, we referred the investigation to his home institution. 5
                                            University Action
     Investigation: The University provided a report, evidence, and its adjudication. 6 It
     appointed an investigation committee (Committee) that reviewed the material we
     provided and ran several of the Subject's other proposals (6 NSF proposals and 8
     proposals submitted to other agencies) and publications (10 papers and 1 in press)
     through its plagiarism software. The Committee interviewed the Subject and he
     stated it was a common practice to insert material from other sources into his
     proposals during preparation. He did not think this was plagiarism because it was
     background material and he made small changes: "if I added,delete, or change a
     few words that are in general the sentence would be different from the source and
     would not require .cite."7 He felt similarly about figures and tables. He thought if
     he made minor modifications, it became his own work. The Committee noted in the
     questioned proposal, there existed a substantial number of passages in which no
     word or punctuation had been changed and other instances where a minor change
     was made "to tailor plagiarized content to fit the proposal purpose."8
          In addition to verifying the copied text we identified, the Committee foundtwo
     tables and a figure copied without change and without attribution. The Subject
     defended the inclusion of that . material by stating it was basic, textbook
     information, and he pointed out the paper itself did not cite the tables or figure.



         1 [redacted].
        2  [redacted]. The Subject is listed as the PI. This proposal, together with the source documents,
     are Tab l.
         3 Our Inquiry letter to the Subject is Tab 2.
         4 The Subject's response to our Inquiry letter is Tab 3.
         DOur referral letter is Tab 4.
         6 The entirety of the University's response is Tab 5. The Committee's report (with the Subject's
     comments appended) is Tab 6.
         7 Tab 6, p. 7.
         Sid.


                                                                                                       p. 1
                 The Committee concluded that "as [the Subject] did not recognize this behavior as
                 improper, there was no point to interview [him] further."9
                      The Committee asked the Subject if any other individuals may have
                 contributed to the plagiarized text, but he did not identify anyone. Thus, the
                 Committee concluded that he was solely responsible for the plagiarized text.
                                                Table: Summary of plagiarism
                                     Proposal*             Approximate                Other
                                                         number of copied
                                                             lines lO
                                  NSF Proposal 1                 105              1 fig.; 2 tables
                                 NSF proposal 2 i1                25                     -
                                 NSF proposal 3 12                53                  1 figure
                                 NSF proposal 4 13                50                  1 figure
!)                                DOD proposal 1                  24                     -
       Ii,'
                                 DO E proposal 2**                 9                  1 figure

       ,~        * The initial proposal questioned durmg the InqUlry IS Proposal L The CommIttee Identified the
                 other proposals in the Table as supporting evidence of a pattern.
                 ** The Committee noted DOE Proposal 2 was submitted after we contacted the Subject alleging
          ~;     plagiarism [Tab 6, p. 11.].
      Ir,!
      I'               Based on the Committee's review of the Subject's other proposals, it was
      I           evident that the Subject's practice of including material without attribution was not
       :~         limited to Proposal 1. The Table above summarizes the results of the Committee's
                  examination of the Subject's proposals. The Committee identified substantial text
          I;
                  copied into other NSF proposals from web pages as well as a copied figure without
                 appropriate attributionJ4 Thus, the Committee concluded, using a preponderance
          III
      Ii          of evidence standard, the Subject committed "plagiarism, as defined by NSF
          !; 	
                  regulations, by copying over 100 lines of text, a figure, and two tables from
                  identifiable sources into his NSF proposal [ J without citation or attribution."15
      il          Furthermore, because of the Subject's misinformed view about NSF's lack of
       (;
                  scholarly standards for proposals, which the Committee noted "in large part
                  guaranteed that [the Subject] would submit plagiarized material in grant
       ,~




      Ilil
       t


     lf1-
     ,j
      F	            9 Tab 6, p. 7.
                    10 OIG counted the approximate number of lines.
                    11 [redacted].
      'rl           12 [redacted].




     ~
                    13 [redacted].
                    14 Tab 6, p. 9.
                    15 Ibid, p. 10.

     ii'I
     t	                                                                                                           p.2


     1I
     ~,
     i~1
proposals,"16 the Committee found evidence of a pattern of plagiarism in the
Subject's proposals, but not his papers.
     The Committee concluded, by a preponderance of evidence standard, the
Subject plagiarized recklessly. Its conclusion was based on (1) the amount of
material copied-more than 100 lines, 2 tables, and a figure in the original
questioned proposal alone; (2) the number of different sources sampled; (3) the
incorporation' of figures and tables; (4) evidence of a pattern in both NSF and other
agency proposals; (5) the Subject's own statements; and (6) the Subject's lack of
appreciation for the problems his methodology created-he did not deny the
copying, but justified it as acceptable because the material was background or he
made a minor change to it. The Committee said the Subject's views are below the
standard of understanding expected at the University.17
     Based on the extensive experience of the Committee members in related fields
of engineering and with submitting proposals to various funding agencies, the
Committee concluded the Subject's plagiarism was a significant departure from the
accepted practice of the relevant' research community.1 8 Thus, the Committee
concluded the Subject committed research misconduct when he recklessly                                     ..
plagiarized material into his proposals and this action represented a significant
departure from accepted practices. The Committee found no evidence the Subject's
plagiarism significantly affected the research record. It recommended:
        (1) 	     the Subject receive a strongly worded letter of reprimand placed in his
                  personnel file;
        (2) 	     the Subject complete a training course, proposed and implemented by
                  his. department and approved by the RI019 and Deciding Official
                  (adjudicator),20 that includes discussion of responsible conduct of
                  research, citation and attribution, and copyright before being allowed
                  to submit proposals for funding; and
        (3) 	      for 1 year after the completion of the training course, the Subject must
                   submit all proposals, reports and submissions, including manuscripts,
                   for review by his department, which will certify to the University
                   there is nothing in them that would meet NSF's definition of
                 . plagiarism.
The subject's response to the Committee's report21: The Subject requested
modifications to the report. to make it more balanced with positive as well as
negative findings. As an example, he reiterated that the plagiarism occurred only
in proposals, not in his published papers, and he did this because of his assumption

   16   Tab 6, p. 11.
   17   Ibid, p. 10.
   18   Id.
   19   [redacted], Research Integrity Officer.
   20   [redacted], Vice President for Research.
   21   The Urliversity appended the Subject's response to its report, and it is Tab 6, pp. 13·16.


                                                                                                     p.3
                  that NSF did not have scholarly standards for its proposals. The Subject defended
                  his failure to cite the figure and tables taken from a 1976 publication by noting the
                  paper he copied them from did not cite them either, and, besides, it was basic
                  information.
                  The Subject said the copied material in several of the proposals was taken from
                  equipment manufacturers' web sites and pamphlets, and, in some cases, he added
                  some of his own words to the copied words, thereby making it his own work.
                  Specifically, he noted the copied text in the equipment proposal (NSF proposal 1 in
                  the Table above) was "both cited and referred,"22 yet still questioned.
                  The Subject disputed the Committee's assessment of his intent, arguing that he did
                  not knowingly omit references because of his incomplete understanding of NSF's
           'i·    expectations. He argued his state of mind was "innocent intent"23 because much of
           ,!'    the material was in the public domain.
           ,il    Adjudication: The adjudicator accepted the Committee's report and conclusions. He
             \	
           Ii     noted:

            )!             a preponderance of evidence proves that [the Subject] committed
                           research misconduct (plagiarism) in the NSF proposal referred, as well
            !:             as plagiarism in other NSF proposals and into proposals submitted to
"                          other agencies. These multiple incidences, involving more than one
          :!!
           !               agency, and more than one proposal, are clearly documented and
        I,'                contribute to the preponderance of evidence. 24
        .~il'     The adjudicator emphasized the plagiarism was a "very serious breach of
           "1,.   professional standards in our community of scholars"25 but noted the severity was
                  somewhat diminished because the plagiarism was not in publications and was
           ::1
           ': 	
                  generally background material. He imposed the following actions: 26
         lI'         •      Within the next 6 months, the Subject must complete a training course in the
                            responsible conduct of research, including how to properly treat copyrighted
        I~I                 material. The course must be approved by the RIO.
     t
     I~!
                     • 	 Beginning immediately and continuing for 3 years after the satisfactory
                         completion of the course, the Subject must certify to the RIO that each grant
                         proposal, report, or submission to NSF or any agency on which he is PI is free
                         of plagiarism. The RIO will review each submission and, when he is satisfied
     ~j                  they contain no instances of research misconduct, he will authorize the Office
     I
     1\'
                         of Sponsored Research to process th~ documents for submission.

     ~!I
     ~~.
                     22   Tab 6, p. 15.
    f1               231d.
    Ii               24   Tab 8, p. 1.
                     251d.
    :~,              26   Ibid, p. 2.
    I


    }                                                                                                p.4


    t
    :~I
                                     OIG's Assessment
      We reviewed the Committee's report, Subject's response, and adjudication,
including the accompanying evidence. We concluded the University's report was
accurate and complete, and it followed reasonable procedures. The Committee
confirmed the initial allegation of plagiarism in which the Subject copied
approximately 105 lines of text into his proposal from multiple web pages. The
Committee's thorough examination also found the Subject copied without
appropriate attribution one figure and two tables from a paper into that proposaL
We concur with the University this additional use of material was inappropriately
cited. The Subject's argument that the original 1976 paper did not itself cite that
material, therefore he did not have to cite it, is flawed. The Subject did not consider
the possibility that the 1976 paper could have been the first source of that compiled
information or, even if the paper's author should have cited someone else, that the
Subject's repetition of bad citation practices would be a classic example of "two
wrongs don't make a right."
      The Committee's review of the Subject's papers and proposals revealed a
 startling disparity of ethics. When he was preparing proposals, he did not believe
 they required the same level of scholarship as papers and thus decided to include
 others' words, tables, and figures without appropriate citation. When the Subject
.was writing manuscripts for submissions to scientific journals, however, he
 appropriately cited his sources demonstrating he could properly cite if he chose to
 do so. As' shown in the Table, the Committee found several of the Subjecfs
 proposals that contained unattributed material and concluded it constituted
 evidence of a pattern; we concur.
     We also note the subject claimed to be unfamiliar with NSF's standards and
expectations for proposals. The NSF Grant Proposal Guide is clear: "NSF expects
strict adherence to the rules of proper scholarship and attribution.               The
responsibility for proper attribution and citation rests with authors of a proposal; all
parts of the proposal should be prepared with equal care for this concern."27
     Afinding of research misconduct requires the alleged bad act be proven by a
preponderance of the evidence; the act be committed recklessly, knowingly, or
intentionally (willfully or purposefully); and the act be a significant departure from
accepted practices of the relevant research community.28
                                            The Act
    The Subject copied approximately 105 lines of text, 1 figure, and 2 tables from
10 web pages from 6 sites and a published paper into one of his proposals without


    27 NSF GPG, Chapter 1, Section D.3. This sentiment has been in effect since at least 1973 when
PIs were told a proposal should be "written with the care and thoroughness accorded paper prepared
for publication [NSF Grants for Scientific Research NSF 73·12, p. 2]. As the Committee noted, the
Subject's papers, unlike his proposals, were properly cited.
    28 45 CFR §689.2(c).                            .


                                                                                               p.5
                                                                                                   ..
      ~Ii
        i

~
    . ~i
       II

      I'I
                                                                                                        .
      I,:




            appropriate citation. The Committee established that a preponderance of evidence
            supported this act, and the adjudicator concurred. We likewise concur.
                                                       Intent
                 The University concluded the Subject acted recklessly. It noted the Subject
            told both NSF OIG and the Committee he thought his copying was not problematic
            because it occurred in proposals, it was background material, and once he made
            minor changes, copied material no longer required citation. It confirmed that the
            Subject's copying, occurring only in proposals, mirrored his perceived difference in
            standards for published papers versus NS~ (and other agency's) proposals. We
            concur with the University that the Subject acted recklessly.
                                                Significant Departure
                The University considered the Subject's action a significant departure from the
            accepted standards of the University and his research community, and we concur.


                 Given the preponderance of the evidence that the Subject plagiarized with a
            culpable level of intent, and his action. was a significant departure from accepted
            practices, we concur with the University that the Subject committed research
            misconduct.
                                           OIG's Recommended Disposition
                 In deciding what actions are appropriate when making a finding of research
            misconduct, NSF must consider several factors. These factors include how serious
            the misconduct was; degree of intent; whether it was an isolated event or part of a
            pattern; its impact on the research record; and other relevant circumstances. 29
                                                   Degree of Intent
                 The Subject espoused views on citation standards that might be somewhat
            understandable if held by an inexperienced graduate student or post-doc. The
            Subject, however, is a distinguished faculty member and researcher, a director of an
            NSF-funded Center, and has served as an editor-in-chief of a scientific publication.
            The Subject has reviewed proposals for, and submitted dozens of proposals to, NSF
            since the late 1990s and should be very familiar with NSF's scholarly standards, yet
            acted contrarily to how a reasonable person with his experience should act.
            Accordingly, we conclude the Subject acted at the extreme end of the spectrum of
            recklessness.
                                                       Pattern
                  In our Inquiry, the Subject told us the materials in his other proposals were
            properly cited. As described above, the Committee found multiple proposals with
            substantive plagiarism, including text and figures in several proposals to NSF and


               29   45 C.F.R. §689.3(b).


                                                                                             p.6
\   .




        other agencies (see the Table). Therefore, we concur with the University there is
        evidence of a pattern of plagiarism.                                                      •
                                          Impact on the Research Record
               The primary proposal that was the Subject of this investigation was declined,
        so the plagiarism in that proposal does .not significantly affect the research record.
        Additionally, the three NSF proposals in which the plagiarism supported evidence
        of a pattern were declined, so the additional plagiarism does not seriously affect the
        research record. As noted in the report, none of the Subject's published papers were
        found to have plagiarism.
                                                      Seriousness
              This plagiarism is a significant departure from accepted standards and thus
        warrants action by NSF. The plagiarized text includes text, figures, and tables in
        multiple proposals and from multiple sources. The Subject is a senior faculty
        member and senior researcher and director of an NSF Center and therefore
        responsible for mentorship of students, post-docs, and junior faculty and should be
        providing, among other mentorship responsibilities, guidance on how to prepare
        properly cited proposals. That he does not do so himself, raises the seriousness of
        this matter.
                                        Subject's response to draft ROI
               The Subject's response 30 to our draft ROI did not raise any substantive
        issues. He said he has great respect for NSF's and the University's policies, but still
        claims his violation of them was unintentionaL He said he changed his proposal
        preparation practices and will now keep his proposals at the same standard of
        scholarship as his research publications. He asks that NSF consider how any
        actions would affect his remaining career.


                                                 Recommendations
              Consistent with the need to protect the interests of the public and the NSF,
        we recommend NSF take the following action as a final disposition of this case:
           • 	 Send the Subject a letter of reprimand notifying him NSF is making a finding
               of plagiarism and research misconduct. 31
           • 	 Require the Subject to take a course on responsible research practices with
               emphasis on proper citation and attribution practices of proposals. 32 t
           • 	 For the next 3 years, require the Subject to provide with every submission to
               NSF a certification that the submitted work is either entirely his own writing
               or is properly cited. 33

           30   Tab 9.
           31   This is a Group I action: 45 CFR §689.3(a)(1)(i).
           32   This is similar to a Group I action: 45 CFR 689.3(a)(1).


                                                                                           p. 7
       • 	 For 3 years, after the Subject presents his NSF submissions to his RIO for
           review, the RIO should provide an assurance to OIG that, to the best of his or
           her knowledge, the Subject's work is entirely his own writing or is properly
           cited. 34
    The proof of course completion, certifications, and assurances should be sent to the



I
    Assistant Inspector General for Investigations at the Office ofInspector General for
    NSF.




                                                                                            ..




       33   This is similar to a Group I action.
       34   This is similar to a Group I action.


                                                                                      p.8
